Priority: Normal


                                                                                                            consultant costs
-   -   -   _   _   _   _   -   _   -   _   _   _   _   _   C   _   _   _   -
                                                                                Y
                                                                                -   -   -   -   -   -   -   ~   -   -   - Message Contents
                                                                                                                            -   -   -   -   -   ....................................

The OIG previously referred the audit report for               to your
office but requestkd that you not resolve the matter of the excess
consultant fees until our office conducted further inquiries into this
matter. We have since completed our inquiries and we continue to
recommend that the $17,850 in excess fees be returned to NSF.

Let me know if you"have any questions.
